                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

11   Case Number: A03120078                                                                    Page 1 of 1



           We reviewed 71 grants selected by a random sampling procedure from NSF Fiscal Year 2001
           awards for conferences, workshops and symposia. As part of the review, we requested grant
           records from each grantee. Where the records indicated possible issues, we opened inquiries to
           resolve the issues.

           In a grant that supported proposal development workshops for prospective PIS', our analysis
           indicated certain cost-related issues, including participant support expenditures. We opened an
           inquiry to resolve the issues and wrote to the grantee, a small non-profit organization. Our
           subsequent discussions with the grantee's accountant indicated that significant participant
           support funds were reallocated to other cost categories without prior written approval from NSF.
           We also identified unallowable costs and credits that were not applied to the grant.

           The grantee agreed with our analysis and refunded NSF for credits and a mischarge. The grantee
           also provided NSF with justification for reallocation of participant support funds and requested
           retroactive approval. In a strongly worded letter to the grantee, the NSF program officer approved
           the request but emphasized the grantee's responsibilities to adhere to grant conditions and obtain
           NSF approvals when required. Finally, the program officer asked that the grantee take certain
           steps to avoid recurrence of this issue.

           Because the grantee has a number of active awards involving significant participant support
           funds, we have referred the matter to the Office of Audit for further review. Accordingly, this




 NSF OIG Form 2 (1 1/02)
